19________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES

THE PEOPLE OF THE STATE OF MICHIGAN,
Petitioner,
vs.
JUAN T. WALKER
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE MICHIGAN SUPREME COURT
APPENDICES A THROUGH E

KYM L. WORTHY
Wayne County Prosecuting Attorney
JASON W. WILLIAMS
Chief of Research, Training, and Appeals
TIMOTHY A. BAUGHMAN*
Special Assistant Prosecuting Attorney
11th Floor, 1441 St. Antoine
Detroit, Michigan 48226
Phone: (313) 224-5792
tbaughma@waynecounty.com
* Counsel of Record

Appendix A: Michigan Supreme Court Order
Remanding for Hearing
Supreme Court of Michigan.
PEOPLE of the State of Michigan,
Plaintiff–Appellee,
v.
Juan WALKER,
Defendant–Appellant.
Docket No. 145433.
COA No. 307480.
Nov. 19, 2014.
Order
By order of April 29, 2013, the application for
leave to appeal the May 21, 2012 order of the Court
of Appeals was held in abeyance pending the
decision in Burt v. Titlow, cert. gtd. 571 U.S. ––––,
133 S.Ct. 1457, 185 L.Ed.2d 360 (2013). On order of
the Court, the case having been decided on
November 5, 2013, 571 U.S. ––––, 134 S.Ct. 10, 187
L.Ed.2d 348 (2013), the application is again
considered and, pursuant to MCR 7.302(H) (1), in
lieu of granting leave to appeal, we REMAND this
case to the Wayne Circuit Court for an evidentiary
hearing, pursuant to People v. Ginther, 390 Mich.
436, 212 N.W.2d 922 (1973), as to the defendant’s
contention that his trial counsel was ineffective for
failing to inform him of the prosecutor’s September
26, 2001 offer of a plea bargain to second-degree
murder and a sentence agreement of 25 to 50 years.
See Missouri v. Frye, 566 U.S. ––––, 132 S.Ct.
1A

1399, 182 L.Ed.2d 379 (2012). To prevail on a claim
of ineffective assistance of counsel, a defendant
must show: (1) that his attorney’s performance was
objectively unreasonable in light of prevailing
professional norms; and (2) that he was prejudiced
by the deficient performance. People v. Carbin, 463
Mich. 590, 599–600, 623 N.W.2d 884 (2001). In
order to establish the prejudice prong of the inquiry
under these circumstances, the defendant must
show that: (1) he would have accepted the plea
offer; (2) the prosecution **745 would not have
withdrawn the plea offer in light of intervening
circumstances; (3) the trial court would have
accepted the defendant’s plea under the terms of
the bargain; and (4) the defendant’s conviction or
sentence under the terms of the plea would have
been less severe than the conviction or sentence
that was actually imposed. Lafler v. Cooper, 566
U.S. ––––, 132 S.Ct. 1376, 1385, 182 L.Ed.2d 398
(2012).
If the defendant establishes that his trial
counsel was ineffective in failing to convey the plea
bargain as outlined above, the defendant shall be
given the opportunity to establish his entitlement
to relief pursuant to MCR 6.508(D). If the
defendant successfully establishes his entitlement
to relief pursuant to MCR 6.508(D), the trial court
must determine whether the remedy articulated in
Lafler v. Cooper should be applied retroactively to
this case, in which the defendant’s conviction
became final in October 2005. If available, Judge
Thomas Edward Jackson shall preside over the
hearing.

2A

The circuit court shall, in accordance with
Administrative Order 2003–03, determine whether
the defendant is indigent and, if so, appoint counsel
to represent the defendant in this matter. In all
other respects, leave to appeal is DENIED, because
we are not persuaded that the remaining question
presented should be reviewed by this Court.
We do not retain jurisdiction.

3A

Appendix B: Michigan Court of Appeals opinion
reversing trial court grant of relief
PEOPLE of the State of Michigan,
Plaintiff–Appellant,
v.
Juan T. WALKER,
Defendant–Appellee.
No. 332491
October 12, 2017
Wayne Circuit Court, LC No. 01–003031–01–FC
Before: Saad, P.J., and Cavanagh and Cameron, JJ.
Opinion
Per Curiam.
The prosecution appeals by leave granted1
the trial court order granting defendant’s motion
for relief from judgment. We reverse and remand.
Defendant was originally sentenced in 2001
to life imprisonment without parole for first-degree
premeditated murder, MCL 750.316, and two years’
imprisonment for possession of a firearm during
the commission of a felony (felony-firearm), MCL
750.227b. This Court previously affirmed
defendant’s convictions and sentences. People v.
Walker, unpublished opinion per curiam of the
Court of Appeals, issued March 1, 2005 (Docket No.
239711). The Michigan Supreme Court denied
defendant’s request for leave to appeal. People v.
Walker, 474 Mich 902 (2005). In 2011, defendant
filed a motion for relief from judgment in the trial
4A

court after discovering his trial counsel failed to
inform him of a plea offer to second-degree murder,
MCL 750.317, and felony-firearm, with a sentence
of 25 to 50 years’ imprisonment for second-degree
murder, plus two years’ imprisonment for
felony-firearm. The prosecution faxed the plea offer
to defense counsel several days before the trial
commenced, but defendant claimed defense counsel
never relayed the offer to defendant. The trial court
denied defendant’s motion for relief from judgment,
and he sought leave to appeal in this Court, which
was also denied. People v. Walker, unpublished
order of the Court of Appeals, entered May 21, 2012
(Docket No. 307480). Defendant sought leave to
appeal that order in the Michigan Supreme Court,
which was held in abeyance pending the decision in
Burt v. Titlow, ––– U.S. ––––; 134 S.Ct. 10; 187
L.Ed. 2d 348 (2013).2 People v. Walker, 829 N.W.2d
217 (2013). Once Burt was decided, the Michigan
Supreme Court issued an order remanding
defendant’s case to the trial court for a Ginther
hearing, with the following specific instructions:
... we REMAND this case to the
Wayne Circuit Court for an
evidentiary hearing, pursuant to
[Ginther ], as to the defendant’s
contention that his trial counsel was
ineffective for failing to inform him of
the prosecutor’s September 26, 2001
off er of a pl ea b a rg a i n to
second-degree murder and a sentence
agreement of 25 to 50 years. See
Missouri v. Frye, 566 U.S. ––––, 132
S.Ct. 1399, 182 L.Ed. 2d 379 (2012).
5A

To prevail on a claim of ineffective
assistance of counsel, a defendant
must show: (1) that his attorney’s
performance was objectively
unreasonable in light of prevailing
professional norms; and (2) that he
was prejudiced by the deficient
performance. People v. Carbin, 463
Mich 590, 599–600, 623 N.W.2d 884
(2001). In order to establish the
prejudice prong of the inquiry under
these circumstances, the defendant
must show that: (1) he would have
accepted the plea offer; (2) the
prosecution would not have
withdrawn the plea offer in light of
intervening circumstances; (3) the
trial court would have accepted the
defendant’s plea under the terms of
the bargain; and (4) the defendant’s
conviction or sentence under the terms
of the plea would have been less
severe than the conviction or sentence
that was actually imposed. Lafler v.
Cooper, 566 U.S. ––––, 132 S.Ct. 1376,
1385, 182 L.Ed. 2d 398 (2012).
If the defendant establishes
that his trial counsel was ineffective in
failing to convey the plea bargain as
outlined above, the defendant shall be
given the opportunity to establish his
entitlement to relief pursuant to MCR
6.508(D). If the defendant successfully
establishes his entitlement to relief
6A

pursuant to MCR 6.508(D), the trial
court must determine whether the
remedy articulated in Lafler v. Cooper
should be applied retroactively to this
case, in which the defendant’s
conviction became final in October
2005. [People v. Walker, 497 Mich 894,
894–895 (2014).]
After the trial court held a Ginther hearing,
it entered an order finding that defendant received
the ineffective assistance of counsel because his
trial attorney failed to inform defendant of the plea
offer. Defendant then filed another motion for relief
from judgment in the trial court, as required by our
Supreme Court’s remand order, and the trial court
granted that motion and ordered the prosecution to
reoffer defendant the plea deal. Defendant then
pleaded guilty and was resentenced to 25 to 50
years’ imprisonment for second-degree murder and
two years’ imprisonment for felony-firearm.
On appeal, the prosecution argues that
defendant was afforded the effective assistance of
counsel because he was not prejudiced, i.e., he did
not demonstrate that there was a reasonable
probability that he would have accepted the plea
offer had it been made known to him. We agree.
A claim alleging ineffective assistance of
counsel presents “a mixed question of fact and law.”
People v. Ackley, 497 Mich 381, 388; 870 N.W.2d
858 (2015). “A judge must first find the facts, then
must decide whether those facts establish a
violation of the defendant’s constitutional right to
the effective assistance of counsel.” People v.
Armstrong, 490 Mich 281, 289; 806 N.W.2d 676
7A

(2011) (quotation marks and citation omitted). We
review the trial court’s findings of fact for clear
error and review questions of constitutional law de
novo. People v. Trakhtenberg, 493 Mich 38, 47; 826
N.W.2d 136 (2012). “Clear error exists if the
reviewing court is left with a definite and firm
conviction that the trial court made a mistake.”
Armstrong, 490 Mich at 289. Additionally, this
Court reviews a trial court’s decision regarding a
motion for relief from judgment for an abuse of
discretion, and we review the trial court’s findings
of fact supporting its decision on the motion for
clear error. People v. Swain, 288 Mich App 609,
628; 794 N.W.2d 92 (2010). An abuse of discretion
occurs when the trial court’s decision “falls outside
the range of reasonable and principled outcomes” or
when the trial court “makes an error of law.” Id. at
628–629.
A defendant is entitled to the effective
assistance of counsel during the plea-bargaining
process just as he or she is entitled to the effective
assistance of counsel at trial. People v. Douglas,
496 Mich 557, 591–592; 852 N.W.2d 587 (2014).
When a defendant seeks relief for ineffective
assistance of counsel in the plea-bargaining
context, he or she must meet the two-pronged
standard set forth in Strickland v. Washington, 466
U.S. 668; 104 S.Ct. 2052; 80 L.Ed. 2d 674 (1984).
Douglas, 496 Mich at 592. The defendant must
show “(1) that counsel’s representation fell below
an objective standard of reasonableness, and (2)
that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.” Douglas,
8A

496 Mich at 592, quoting Lafler v. Cooper, 566 U.S.
156, 163; 132 S.Ct. 1376; 182 L.Ed. 2d 398 (2012)
(quotation marks omitted). In demonstrating
prejudice, “the defendant must show the outcome of
the plea process would have been different with
competent advice.” Douglas, 496 Mich at 592,
quoting Lafler, 566 U.S. at 163 (quotation marks
omitted). When evaluating alleged prejudice from
counsel’s failure to inform the defendant of a plea
offer, the defendant “must demonstrate a
reasonable probability [he] would have accepted the
earlier plea offer had [he] been afforded effective
assistance of counsel.” Missouri v. Frye, 566 U.S.
134, 147; 132 S.Ct. 1399; 182 L.Ed. 2d 379 (2012).
Consistent with this standard, our Supreme
Court’s remand order required defendant to
demonstrate prejudice as outlined in Lafler:
[A] defendant must show that but for
the ineffective advice of counsel there
is a reasonable probability that the
plea offer would have been presented
to the court (i.e., that the defendant
would have accepted the plea and the
prosecution would not have
withdrawn it in light of intervening
circumstances), that the court would
have accepted its terms, and that the
conviction or sentence, or both, under
the offer’s terms would have been less
severe than under the judgment and
sentence that in fact were imposed.
[Lafler, 566 U.S. at 164.]
The only element of this standard in dispute on
appeal is whether there was a reasonable
9A

probability that defendant would have pleaded
guilty to second-degree murder had he been aware
of the plea offer. “A reasonable probability is a
probability sufficient to undermine confidence in
the outcome.” Strickland, 466 U.S. at 694. The
prosecution insists that defendant was not
prejudiced because defendant failed to show a
reasonable probability that he would have accepted
the plea, insisting throughout trial and at his
Ginther hearing that he was innocent.
In Lafler, the defendant rejected a plea offer
twice based on his attorney’s erroneous
representations that the prosecution would not be
able to establish intent to murder the victim.
Lafler, 566 U.S. at 161. A Ginther hearing was
held, wherein the defendant argued that his
attorney’s advice to reject the plea offer constituted
ineffective assistance of counsel. Id. The parties
agreed that defense counsel’s performance was
deficient, satisfying the first prong of the
Strickland two-part test. Id. at 163. Thus, the only
issue was the application of the prejudice prong. Id.
“If a plea bargain has been offered, a defendant has
the right to effective assistance of counsel in
considering whether to accept it. If that right is
denied, prejudice can be shown if loss of the plea
opportunity led to a trial resulting in a conviction
on more serious charges or the imposition of a more
severe sentence.” Id. at 168. The defendant
demonstrated that but for his counsel’s deficient
performance, there was a reasonable probability
that he would have taken the plea deal, and the
trial court would have accepted it. Id. at 174.
Furthermore, the defendant received a sentence
10A

that was 3 ½ times the plea offer, thereby
satisfying the prejudice prong. Id. The Supreme
Court also determined that the appropriate remedy
was for the prosecution to reoffer the plea, and if
the defendant accepted the offer, it was up to the
trial court’s discretion whether to resentence the
defendant. Id. at 170–172, 174–175.
In Douglas, the trial court rejected the
defendant’s claim that he was denied the effective
assistance of counsel when his attorney failed to
correctly inform the defendant of the mandatory
minimum sentence for first-degree criminal sexual
conduct, the defendant rejected two plea offers, and
he was then convicted at trial and received a more
severe sentence. Douglas, 496 Mich at 564. This
Court reversed, concluding that defense counsel’s
performance was deficient, which prejudiced the
defendant. Id. at 564–565. Our Supreme Court
agreed that defense counsel’s performance was
deficient, but it disagreed with this Court’s
conclusion that the defendant had shown he was
prejudiced. Id. at 595. The Douglas Court explained
that this Court “made no mention of the role that
the defendant’s belief in his innocence may have
played in his decision to go to trial, despite its
prominent place in the trial court’s reasoning.” Id.
At the Ginther hearing, the defense attorney
testified that the defendant always maintained his
innocence. Id. at 596. The defendant testified that
he would have accepted the plea had he known of
the mandatory minimum for the sentence, and had
he not mistakenly believed that registering on the
sex offender list would preclude him from living
with his children. Id. Even though defendant
11A

consistently claimed he would have accepted the
plea, the Douglas Court said “the full body of the
defendant’s testimony undermines the credibility of
his assertions that either these misconceptions or
the misinformation regarding the sentence he faced
at trial meaningfully influenced his decision to
reject the prosecution’s plea offer.” Id. at 597. The
defendant testified that he would not have accepted
a plea that required sex offender registration or a
plea that required jail time because he was
innocent, he did not commit the crime, and he
thought he would prevail at trial. Id. The Michigan
Supreme Court explained:
This testimony is confusing at best, and
casts significant doubt upon what circumstances, if
any, would have led the defendant to accept a plea.
It certainly betrays no clear error in the trial
court’s discernment of the common thread running
throughout both the defendant’s and his counsel’s
testimony: that the defendant rejected the
prosecution’s plea offers because he was innocent of
the charges, was not a sex offender, and was not
interested in pleading guilty to repugnant acts that
he did not commit.
As a result, we are not “left with a definite
and firm conviction that the trial court made a
mistake” in finding that the defendant has failed to
show prejudice stemming from his counsel’s
deficient performance, rather, the record amply
supports the conclusion that, even had defendant
been properly advised of the consequences he faced
if convicted at trial, it was not reasonably probable
that he would have accepted the prosecution’s plea
offer. [Id. at 597–598 (citations omitted) ]
12A

The Douglas Court held that the defendant
was not entitled to reinstatement of the
prosecution’s plea offer because the defendant did
not demonstrate that he was prejudiced by his
attorney’s misconduct. Id. at 599.
The issue here turns on whether the trial
court clearly erred when it concluded that there
was a reasonable probability that defendant would
have accepted the plea had his trial counsel
informed him of it. In other words, whether the
trial court’s finding leaves us “with a definite and
firm conviction that the trial court made a
mistake.” Armstrong, 490 Mich at 289. In making
this determination, we keep in mind that “regard
shall be given to the special opportunity of the trial
court to judge the credibility of the witnesses who
appeared before it.” MCR 2.613(C); People v.
Dendel, 481 Mich 114, 130; 748 N.W.2d 859 (2008),
amended on other grounds 481 Mich 1201 (2008).
At the Ginther hearing, defendant testified
that he was innocent, that he did not kill the
victim, that he was not present at the car wash on
the date and time when the victim was killed, and
that he had nothing to do with the shooting.
Likewise, defense counsel testified at the Ginther
hearing that defendant maintained his innocence
throughout his jury trial. Despite his claim of
innocence, defendant testified at the Ginther
hearing that he would have pleaded guilty to
murder in order to take advantage of a plea offer
that did not “gamble with his life.”
Defendant’s consistent claim of innocence
certainly casts doubt whether he would have
accepted a plea offer before trial. It goes without
13A

saying that defendant now has the benefit of
comparing an unfavorable sentence of life
imprisonment without parole to a term-of-years
plea offer that appears generous in comparison.
Indeed, the trial court that presided over the
Ginther hearing expressed the same concern about
defendant’s credibility in its memorandum opinion
and order that analyzed both prongs of the
Strickland test for ineffective assistance of counsel.
When examining whether defense counsel’s
performance was deficient, the trial court
expressed concerns regarding defendant’s
credibility:
On cross[-]examination by the prosecutor,
the defendant gave inconsistent and conflicting
testimony. He testified that, although he
maintained his innocence at the trial, he still would
have admitted guilt to a crime he did not commit
because “it wasn’t worth gambling.” Later during
cross [-]examination, when the prosecutor pressed
him on the issue, he testified that he would have
made a guilty plea admitting that he killed the
victim. Yet, he emphatically said that he did not
commit the crime—restated that he denies
admitting the crime, but would admit to it because:
“I wouldn’t gamble with my life like that.” On
re-direct examination by defense counsel,
defendant testified that although he entered a plea
of not guilty when he appeared before the trial
judge for arraignment on the Information, he would
have accepted an offer and would have pled guilty
if an acceptable plea offer had been made. He
reiterated on further questioning that on the day
that the trial court started he would pled [sic]
14A

guilty if the “years were right”. These seem to be
conflicting statements that raises a question of
whether the defendant was willing to accept the
offer of 25 to 50 years.
Admittedly, the trial court seemed to confuse
the standards set forth in Strickland and Lafler,
often discussing what appeared to be a prejudice
analysis during its discussion of defense counsel’s
performance. However, when the trial court finally
turned to prejudice, it further explained:
An examination of the defendant’s
testimony at the recent evidentiary
hearing shows it is convoluted,
contradictory, and inconsistent.... A
reasonable conclusion, in the context
of defendant’s testimony, is that prior
to the beginning of trial he did not
want to plead guilty in this case.
***
Although the defendant vacillated, he
eventually testified that he would
have accepted the plea offer, but his
testimony at the evidentiary hearing
indicated a high probability of
reluctance.
In the end, the trial court found that defense
counsel’s performance was deficient and the trial
court would have accepted the guilty plea had one
been offered. More importantly for this appeal, the
trial court concluded that defendant “was
prejudiced by defense counsel’s failure to inform
him of the plea offer.” The only basis identified in
the memorandum opinion and order for reaching
this conclusion was “due to the incoherence of
15A

defendant’s testimony as to whether he would have
accepted the guilty plea.” Further confusing
matters, the trial court expressly stated in the very
next sentence of its order that “the court’s
reasoning does not answer the question of whether
an analysis of the prejudiced [sic] prong requires a
findings [sic] at this juncture of whether the
defendant would have made an unequivocal plea of
guilty to the reduced charged [sic] of second degree
murder.” In other words, the court found prejudice
without finding defendant would have accepted the
plea offer.
The trial court then ordered defendant to file
a motion for relief from judgment under MCR
6.508(D) consistent with our Supreme Court
remand order. During the hearing, the trial court
readily acknowledged that its prior order may
“have confused the [prejudice] issue,” but
ultimately concluded that there was a reasonable
probability that defendant would have accepted the
offer. In so finding, the trial court did not base its
decision on the credibility of defendant’s testimony,
which the court stated it was “not putting that
much weight on what the defendant said recently.”
Instead, it found prejudice because, had his
attorney advised him of the offer, his counsel
“might have” been able to convince defendant to
accept the plea. The trial court’s conclusion was
grounded in the “many cases that I have tried ...
where a [defendant does not] understand.”
Thereafter, the trial court granted defendant’s
motion for relief from judgment, finding that
defendant would have accepted the plea and
ordering the prosecution to reoffer the plea.
16A

After a review of the record, we are left with
a definite and firm conviction that the trial made a
mistake in its findings, failed to engage in a proper
analysis under Lafler, and thereby abused its
discretion when it granted defendant’s motion for
relief from judgment. Our Supreme Court
mandated the trial court to implement the
prejudice standard set forth in Lafler, including
whether defendant would have accepted the plea
offer. Defendant had the burden of proof in showing
a reasonable probability that he would have
accepted the plea offer. See Douglas, 496 Mich at
592 (“The defendant has the burden of establishing
the factual predicate of his ineffective assistance
claim.”). In making its decision, the trial court had
to conduct a Ginther hearing and consider evidence
to determine whether defendant was prejudiced.
When presiding over the hearing, it needed to (1)
hear witnesses and determine their credibility, (2)
define what circumstances before trial would have
affected defendant’s decision to accept the plea
offer, and (3) weigh the evidence to determine
whether defendant met its burden of proof. After
reviewing the trial court’s findings, we conclude
that it clearly erred by finding that defendant
would have accepted the plea offer. In its ruling,
the trial court failed to properly consider
defendant’s testimony at the Ginther hearing and
did not consider any of the actual circumstances
underlying the plea offer, and for those reasons, we
are left with a definite and firm conviction that the
trial court made a mistake.
First, the record amply supports the trial
court’s determination that defendant was not
17A

credible, and therefore, his testimony did not
support a finding that he would have accepted the
plea offer. The trial court acknowledged that not
only was defendant’s testimony “convoluted,
contradictory, and inconsistent,” defendant
expressed a “high probability of reluctance” and it
would be “reasonable” to conclude “that prior to the
beginning of trial [defendant] did not want to plead
guilty in this case.” Even though the trial court
concluded that defendant was not a credible
witness at the Ginther hearing and hearing on the
motion for relief from judgment, it informed the
prosecution at the latter hearing that it was “not
putting that much weight on what [defendant] said
recently.” Without taking into account defendant’s
testimony, the trial court employed an analysis in
direct contradiction to our Supreme Court’s
mandate in Douglas, i.e., that a defendant’s
testimony, especially his belief in his innocence, is
a factor when considering prejudice. Id. at 595.
Second, the trial court did not consider any
actual circumstances underlying defendant’s case
before or during trial. Instead, the trial court used
its own experience with defendants in similar
circumstances and reasoned they on occasion
changed their minds when their counsel discussed
the wisdom of accepting a plea deal—even if they
originally professed innocence. The trial court did
explain on multiple occasions that it had to “look at
what was happening back in 2001,” but at no time
did it make any findings specific to defendant’s
case. In essence, the trial court determined that he
was prejudiced because, but for the deficient
representation, his trial counsel might have
18A

convinced him to plead guilty, despite his claim of
innocence, without the trial court basing its
findings on any facts specific to his case. This per
se approach to the prejudice analysis defies
established precedent. The Frye Court indicated
that the circumstances underlying each individual
case at the time that the offer is presented could
affect whether the defendant would accept the plea.
Frye, 566 U.S. at 150 (explaining that the strength
of the prosecution’s case at the time of the plea
offer could affect a prejudice finding). In Frye, the
underlying circumstances of the case were such
that it was highly likely that the defendant would
have accepted the first uncommunicated plea offer
because he had later pleaded guilty to a more
serious charge on a separate offense without any
recommendation from the prosecution. Id.
Additionally, our Supreme Court has required that
a defendant’s belief in his innocence be reviewed in
full to determine whether it undermines his
proclamation that he would have accepted the plea.
See Douglas at 595 (holding that a defendant’s
belief in his innocence and how it may have played
in the decision to go to trial is an important factor
to consider). By simply implementing what appears
to be a per se approach to the prejudice analysis
without making specific findings about the
circumstances in this case, the trial court erred
when it granted the motion for relief from
judgment.
We acknowledge that the “reasonable
probability” standard is a lower bar, requiring only
that the circumstances show a “probability
sufficient to undermine confidence in the outcome.”
19A

Strickland, 466 U.S. at 694. At the Ginther
hearing, defendant proclaimed he would have
taken the plea offer. Furthermore, the original
charge, when compared to the plea offer, provides
some proof alone that defendant may have accepted
the plea. A first-degree murder charge resulting in
a life sentence without the possibility of parole is
more severe than 25 to 50 years’ imprisonment. In
fact, the difference between 25 years and life
imprisonment is almost certainly greater than the
sentences at issue in Douglas, Lafler, and Frye.5
However, the trial court did not base its decision on
any of the testimony at the Ginther hearing or on
any evidence of the actual circumstances before
trial. For these reasons, the trial court clearly erred
in finding a reasonable probability defendant would
have accepted the plea offer. Therefore, defendant
did not satisfy his burden in proving ineffective
assistance of counsel, and the trial court abused its
discretion when it granted defendant’s motion for
relief from judgment.
Reversed and remanded for further
proceedings to reinstate defendant’s original
convictions and sentences. We do not retain
jurisdiction.
Footnotes
1 People v. Walker, unpublished order of the Court
of Appeals, entered September 9, 2016 (Docket No.
332491).
2 Although defendant’s application for leave to
appeal was held in abeyance pending Burt, the
Michigan Supreme Court’s specific instructions on
20A

remand do not make reference to the Burt decision,
and therefore, it will not be discussed herein.
3 People v. Ginther, 390 Mich 436; 212 N.W.2d 922
(1973).
4 The prosecution did not provide in its statement
of the questions involved a challenge to the trial
court’s finding on the first prong under Strickland,
as required by our court rules. MCR 7.212(C)(5).
However, the prosecution provided a cursory
argument in its brief, claiming the trial court erred
when it held that defense counsel’s performance
was deficient under Strickland because it had given
defendant the “benefit of the doubt” as to whether
he was informed about the plea. Even if we were to
address this argument, which necessarily
challenges the trial court’s findings in its earlier
opinion and order—not on the motion for relief
from judgment—the trial court did not clearly err
in its finding. Defendant passed a polygraph test as
to this issue, defense counsel testified that he could
not remember relaying the plea offer, and there is
no question that the prosecutor had sent the fax.
The trial court believed defendant’s testimony on
this issue, and we will not disturb the trial court’s
credibility findings. People v. Dendel, 481 Mich
114, 130; 748 N.W.2d 859 (2008), amended on other
grounds 481 Mich 1201 (2008).
5 In Douglas, defense counsel informed the
defendant that he was facing a 20–year maximum
sentence when in reality he was subject to a
mandatory minimum sentence of 25 years’
imprisonment. Douglas, 496 Mich at 593. In Lafler,
instead of accepting an earlier plea offer of 51 to 85
months, the defendant was sentenced following
21A

jury trial to 185 to 360 months. Lafler, 566 U.S. at
161. In Frye, the defendant pleaded guilty to a
felony with a four-year maximum sentence after his
defense counsel failed to inform him of a plea offer
on a separate offense to a misdemeanor with a
one-year maximum sentence. Frye, 566 U.S. at
138–140.

22A

Appendix C: Order of Michigan Supreme Court
reversing and remanding
PEOPLE of the State of Michigan,
Plaintiff-Appellee,
v.
Juan T. WALKER,
Defendant-Appellant.
SC: 156782
COA: 332491
November 21, 2018
Wayne CC: 01-003031-FC
Order
On order of the Court, the application for
leave to appeal the October 12, 2017 judgment of
the Court of Appeals is considered and, pursuant to
MCR 7.305(H)(1), in lieu of granting leave to
appeal, we REVERSE that part of the judgment of
the Court of Appeals holding that the trial court
clearly erred in finding a reasonable probability
that the defendant would have accepted the plea
offer, and we REMAND this case to that court for
consideration of whether Lafler v. Cooper, 566 U.S.
156, 132 S.Ct. 1376, 182 L.Ed.2d 398 (2012), should
be applied retroactively to this case, in which the
defendant’s convictions became final in 2005.
The Court of Appeals found clear error in the
trial court’s memorandum opinion and in its
statements during oral argument at a subsequent
hearing. However, in its review of the record, the
Court of Appeals failed to recognize that, at the end
23A

of that hearing, the trial court quoted the
applicable standard from Lafler and unequivocally
found that there was a reasonable probability that
the defendant would have accepted the plea offer.
This finding—made by the trial judge who presided
over the trial and the evidentiary hearing—is
supported by the record, and we are not “left with a
definite and firm conviction that the trial court
made a mistake.” People v. Armstrong, 490 Mich.
281, 289, 806 N.W.2d 676 (2011).

24A

Appendix D: Opinion of the Michigan Court of
Appeals
PEOPLE of the State of Michigan,
Plaintiff-Appellant,
v.
Juan T. WALKER,
Defendant-Appellee.
No. 332491
May 23, 2019, 9:10 a.m.
Wayne Circuit Court, LC No. 01-003031-FC
Before: Cavanagh, P.J., and Borrello and Cameron,
JJ.
ON REMAND
Cameron, J.
On remand, our Supreme Court has directed
this Court to consider whether the decision in
Lafler v. Cooper, 566 U.S. 156, 132 S.Ct. 1376, 182
L.Ed.2d 398 (2012), should be applied retroactively
to allow defendant to successfully assert that his
trial counsel provided ineffective assistance of
counsel in the plea bargaining context by failing to
notify defendant of a plea offer before trial. We hold
that Lafler applies retroactively because the case
does not announce a new rule. Therefore, applying
the Lafler decision here, we affirm the trial court’s
order granting relief to defendant.
I.
FACTUAL
BACKGROUND

AND

25A

PROCEDURAL

In 2001, a jury convicted defendant of
first-degree premeditated murder, MCL 750.316,
and possession of a firearm during the commission
of a felony (felony-firearm), MCL 750.227b.
Defendant was originally sentenced to life
imprisonment without parole for the first-degree
premeditated murder conviction to be served
consecutive to two years’ imprisonment for the
felony-firearm conviction. This Court affirmed
defendant’s convictions and sentences on direct
review. People v. Walker, unpublished per curiam
opinion of the Court of Appeals, issued March 1,
2005 (Docket No. 239711, 2005 WL 473608)
(Walker I).
In 2011, defendant moved for relief from
judgment in the trial court on the ground that his
trial counsel was ineffective for not informing
defendant of the prosecutor’s pretrial plea offer to
second-degree murder and felony-firearm, with a
sentence agreement of 25 to 50 years’
imprisonment for second-degree murder and two
years’ imprisonment for felony-firearm. The trial
court denied defendant’s motion for relief from
judgment. Defendant filed a delayed application for
leave to appeal, which this Court denied “for failure
to meet the burden of establishing entitlement to
relief under MCR 6.508(D).” People v. Walker, 491
Mich. 921, 812 N.W.2d 749 (2012). Defendant
sought leave to appeal this Court’s order in the
Michigan Supreme Court, which held defendant’s
application in abeyance pending the decision in
Burt v. Titlow, 571 U.S. 12, 134 S.Ct. 10, 187
L.Ed.2d 348 (2013). People v. Walker, 829 N.W.2d
217 (Mich., 2013). After Burt was decided, our
26A

Supreme Court remanded the instant case to the
trial court for a Ginther1 hearing, with these
instructions:
... we REMAND this case to the
Wayne Circuit Court for an
evidentiary hearing, pursuant to
[Ginther], as to the defendant’s
contention that his trial counsel was
ineffective for failing to inform him of
the prosecutor’s September 26, 2001
o ff er of a pl e a b a rg a i n t o
second-degree murder and a sentence
agreement of 25 to 50 years. See
Missouri v. Frye, 566 U.S. 134, 132
S.Ct. 1399, 182 L.Ed.2d 379 (2012). To
prevail on a claim of ineffective
assistance of counsel, a defendant
must show: (1) that his attorney’s
performance was objectively
unreasonable in light of prevailing
professional norms; and (2) that he
was prejudiced by the deficient
performance. People v. Carbin, 463
Mich. 590, 599-600, 623 N.W.2d 884
(2001). In order to establish the
prejudice prong of the inquiry under
these circumstances, the defendant
must show that: (1) he would have
accepted the plea offer; (2) the
prosecution would not have
withdrawn the plea offer in light of
intervening circumstances; (3) the
trial court would have accepted the
defendant’s plea under the terms of
27A

the bargain; and (4) the defendant’s
conviction or sentence under the terms
of the plea would have been less
severe than the conviction or sentence
that was actually imposed. Lafler v.
Cooper, 566 U.S. 156, 164, 132 S.Ct.
1376, 182 L.Ed.2d 398 (2012).
If the defendant establishes
that his trial counsel was ineffective in
failing to convey the plea bargain as
outlined above, the defendant shall be
given the opportunity to establish his
entitlement to relief pursuant to MCR
6.508(D). If the defendant successfully
establishes his entitlement to relief
pursuant to MCR 6.508(D), the trial
court must determine whether the
remedy articulated in Lafler v. Cooper
should be applied retroactively to this
case, in which the defendant’s
conviction became final in October
2005. [People v. Walker, 497 Mich.
894, 894-895, 855 N.W.2d 744 (2014).]
On remand, the trial court held a Ginther
hearing, after which the trial court entered an
order holding that defendant was denied the
effective assistance of counsel when his trial
attorney failed to inform defendant of the plea
offer. The next step in the procedural history was
recounted in this Court’s October 12, 2017 opinion
as follows:
Defendant then filed another
motion for relief from judgment in the
trial court, as required by our
28A

Supreme Court’s remand order, and
the trial court granted that motion
and ordered the prosecution to reoffer
defendant the plea deal. Defendant
then pleaded guilty and was
resentenced to 25 to 50 years’
imprisonment for second-degree
murder and two years’ imprisonment
for felony-firearm. [People v. Walker,
unpublished per curiam opinion of the
Court of Appeals, issued October 12,
2017 (Docket No. 332491, 2017 WL
4557012) (Walker II), rev’d in part &
remanded 503 Mich. 908, 919 N.W.2d
401 (2018).]
In September 2016, this Court granted the
prosecution’s delayed application for leave to
appeal, which challenged the trial court’s order
granting defendant’s motion for relief from
judgment. People v. Walker, unpublished order of
the Court of Appeals, entered September 9, 2016
(Docket No. 332491). In October 2017, this panel
issued an opinion reversing the trial court’s order
and remanding the case for the reinstatement of
defendant’s original convictions and sentences.
Walker II, unpub. op. at 1, 9. This Court agreed
with the prosecutor’s argument “that defendant
was afforded the effective assistance of counsel
because he was not prejudiced, i.e., he did not
demonstrate that there was a reasonable
probability that he would have accepted the plea
offer had it been made known to him.” Id. at 3.2
With respect to the prejudice requirement, this
Court was “left with a definite and firm conviction
29A

that the trial [court] made a mistake in its findings,
failed to engage in a proper analysis under Lafler,
and thereby abused its discretion when it granted
defendant’s motion for relief from judgment.” Id. at
7. That is, “the trial court clearly erred in finding a
reasonable probability defendant would have
accepted the plea offer. Therefore, defendant did
not satisfy his burden in proving ineffective
assistance of counsel, and the trial court abused its
discretion when it granted defendant’s motion for
relief from judgment.” Id. at 9.
Our Supreme Court entered an order
reversing in part this Court’s decision and
remanding the case to this Court for consideration
of whether Lafler applies retroactively to this case;
in particular, our Supreme Court’s order stated as
follows:
On order of the Court, the
application for leave to appeal the
October 12, 2017 judgment of the
Court of Appeals is considered and,
pursuant to MCR 7.305(H)(1), in lieu
of granting leave to appeal, we
REVERSE that part of the judgment
of the Court of Appeals holding that
the trial court clearly erred in finding
a reasonable probability that the
defendant would have accepted the
plea offer, and we REMAND this case
to that court for consideration of
whether Lafler v. Cooper, 566 U.S.
156, 132 S.Ct. 1376, 182 L.Ed.2d 398
(2012), should be applied retroactively

30A

to this case, in which the defendant’s
convictions became final in 2005.
The Court of Appeals found
clear error in the trial court’s
memorandum opinion and in its
statements during oral argument at a
subsequent hearing. However, in its
review of the record, the Court of
Appeals failed to recognize that, at the
end of that hearing, the trial court
quoted the applicable standard from
Lafler and unequivocally found that
there was a reasonable probability
that the defendant would have
accepted the plea offer. This finding –
made by the trial judge who presided
over the trial and the evidentiary
hearing – is supported by the record,
and we are not “left with a definite
and firm conviction that the trial court
made a mistake.” People v.
Armstrong, 490 Mich. 281, 289, 806
N.W.2d 676 (2011). [People v. Walker,
503 Mich. 908, 919 N.W.2d 401, 401
(2018) (Walker III).]
On remand, we must determine whether Lafler
should apply retroactively to this case. If it does,
then we must affirm the trial court’s order finding
that defendant was denied the effective assistance
of counsel when his trial attorney failed to inform
defendant of the plea offer.
II. ANALYSIS

31A

The issue whether a United States Supreme
Court decision applies retroactively presents a
question of law that we review de novo. We review
for an abuse of discretion the trial court’s ultimate
ruling on a motion for relief from a judgment.”
People v. Gomez, 295 Mich. App. 411, 414, 820
N.W.2d 217 (2012) (citation omitted).
Our Supreme Court has recently explained:
Ordinarily, judicial decisions
are to be given complete retroactive
effect. But judicial decisions which
express new rules normally are not
applied retroactively to other cases
that have become final. New legal
principles, even when applied
retroactively, do not apply to cases
already closed, because at some point,
the rights of the parties should be
considered frozen and a conviction
final. Thus, as to those cases that have
become final, the general rule allows
only prospective application. [People v.
Barnes, 502 Mich. 265, 268, 917
N.W.2d 577 (2018) (quotation marks,
ellipsis, and citations omitted).]
In Barnes, 502 Mich. at 269, 917 N.W.2d
577, our Supreme Court quoted from Montgomery
v. Louisiana, 577 U.S. ––––, ––––, 136 S.Ct. 718,
728, 193 L.Ed.2d 599 (2016), for the most recent
explanation of the federal standard for
retroactivity:
Justice O’Connor’s plurality
opinion in Teague v. Lane, 489 U.S.
288[, 109 S.Ct. 1060, 103 L.Ed.2d 334]
32A

(1989), set forth a framework for
retroactivity in cases on federal
collateral review. Under Teague, a
new constitutional rule of criminal
procedure does not apply, as a general
matter, to convictions that were final
when the new rule was announced.
Teague recognized, however, two
categories of rules that are not subject
to its general retroactivity bar. First,
courts must give retroactive effect to
new substantive rules of constitutional
law. Substantive rules include rules
forbidding criminal punishment of
certain primary conduct, as well as
rules prohibiting a certain category of
punishment for a class of defendants
because of their status or offense.
Second, courts must give retroactive
effect to new watershed rules of
criminal procedure implicating the
fundamental fairness and accuracy of
the criminal proceeding. [Barnes, 502
Mich. at 269, 917 N.W.2d 577, quoting
Montgomery, 577 U.S. at ––––, 136
S.Ct. at 728 (brackets in original;
quotation marks, ellipsis, and
citations omitted).]
In short, “Teague makes the retroactivity of
[the United States Supreme Court’s] criminal
procedure decisions turn on whether they are
novel.” Chaidez v. United States, 568 U.S. 342, 347,
133 S.Ct. 1103, 185 L.Ed.2d 149 (2013). Absent one
of the two exceptions noted above, a new rule
33A

announced by the United States Supreme Court
may not collaterally benefit a person whose
convictions are already final. Id. “Only when [the
United States Supreme Court] appl[ies] a settled
rule may a person avail herself of the decision on
collateral review.” Id.
Therefore, the first question under Teague is
whether a judicial decision establishes a new rule.
Barnes, 502 Mich. at 269, 917 N.W.2d 577, citing
People v. Maxson, 482 Mich. 385, 388, 759 N.W.2d
817 (2008). A judicial decision’s rule is considered
to be new if “it breaks new ground or imposes a
new obligation on the [s]tates or the [f]ederal
[g]overnment.” Maxson, 482 Mich. at 388, 759
N.W.2d 817 (quotation marks and citation omitted);
see also Chaidez, 568 U.S. at 347, 133 S.Ct. 1103.
In other words, “a case announces a new rule if the
result was not dictated by precedent existing at the
time the defendant’s conviction became final.”
Chaidez, 568 U.S. at 347, 133 S.Ct. 1103 (quotation
marks and citation omitted). “And a holding is not
so dictated ... unless it would have been apparent to
all reasonable jurists.” Id. (quotation marks and
citation omitted).
But a case does not announce a new rule if
the case is merely applying a “principle that
governed a prior decision to a different set of facts.”
Id. at 347-348, 133 S.Ct. 1103 (quotation marks
and citations omitted). “[W]hen all [the United
States Supreme Court does] is apply a general
standard to the kind of factual circumstances it
was meant to address, [the Court] will rarely state
a new rule for Teague purposes.” Id. at 348, 133
S.Ct. 1103. Therefore, “garden-variety applications
34A

of the test in [Strickland] for assessing claims of
ineffective assistance of counsel do not produce new
rules.” Id. The Strickland standard “provides
sufficient guidance for resolving virtually all claims
of ineffective assistance, even though their
particular circumstances will differ.” Id. (quotation
marks and citation omitted). The United States
Supreme Court has therefore “granted relief under
Strickland in diverse contexts without ever
suggesting that doing so required a new rule.” Id.
In Chaidez, 568 U.S. at 344, 133 S.Ct. 1103, the
United States Supreme Court considered the
retroactivity of its decision in Padilla v. Kentucky,
559 U.S. 356, 130 S.Ct. 1473, 176 L.Ed.2d 284
(2010), in which the Supreme Court “held that the
Sixth Amendment requires an attorney for a
criminal defendant to provide advice about the risk
of deportation arising from a guilty plea.” The
Supreme Court concluded in Chaidez that Padilla
announced a new rule because the holding in
Padilla was not “apparent to all reasonable jurists”
before Padilla was decided. Chaidez, 568 U.S. at
354, 133 S.Ct. 1103 (quotation marks and citation
omitted). Indeed, there had been no United States
Supreme Court precedent before Padilla that
dictated the rule that the Strickland test applied to
a defense counsel’s failure to advise the defendant
about non-criminal consequences of sentencings,
like the possibility of deportation. Id. at 353, 133
S.Ct. 1103. The Supreme Court stated in Chaidez
that “Padilla would not have created a new rule
had it only applied Strickland’s general standard to
yet another factual situation—that is, had Padilla
merely made clear that a lawyer who neglects to
35A

inform a client about the risk of deportation is
professionally incompetent.” Id. at 348-349, 133
S.Ct. 1103. Padilla did more than this, however; it
considered a “threshold question[ ]” about whether
deportation advice fell within the scope of the Sixth
Amendment right to counsel. Id. at 349, 133 S.Ct.
1103. “In other words, prior to asking how the
Strickland test applied (‘Did this attorney act
unreasonably?’), Padilla asked whether the
Strickland test applied (‘Should we even evaluate if
this attorney acted unreasonably?’).” Id. The
Supreme Court’s determination in Padilla that the
Strickland test applied thus constituted a new rule.
Id. at 349, 358, 133 S.Ct. 1103. Therefore, under
Teague, defendants whose convictions became final
before Padilla was issued could not benefit from the
holding in Padilla. Id. at 358, 133 S.Ct. 1103.
Our Supreme Court has directed this Court
to consider whether Lafler’s holding applies
retroactively. In doing so, this Court must consider,
under the federal retroactivity jurisprudence
summarized earlier, whether Lafler created a new
rule of constitutional law.
In Lafler, the defendant rejected a plea offer
on the advice of his attorney. Lafler, 566 U.S. at
160, 132 S.Ct. 1376. After the plea offer was
rejected, the defendant had a full and fair jury trial
that resulted in a guilty verdict, and the defendant
received a harsher sentence than what was offered
in the rejected plea bargain. Id. The parties agreed
in Lafler that the defense counsel’s performance
was deficient when he advised the defendant to
reject the plea offer. Id. at 163, 132 S.Ct. 1376. The
Supreme Court noted in Lafler that the Court had
36A

held in Hill v. Lockhart, 474 U.S. 52, 106 S.Ct. 366,
88 L.Ed.2d 203 (1985), that the Strickland test
applied “to challenges to guilty pleas based on
ineffective assistance of counsel.” Lafler, 566 U.S.
at 163, 132 S.Ct. 1376, quoting Hill, 474 U.S. at 58,
106 S.Ct. 366. The Supreme Court stated that
“[t]he question for this Court is how to apply
Strickland’s prejudice test where ineffective
assistance results in a rejection of the plea offer
and the defendant is convicted at the ensuing
trial.” Lafler, 566 U.S. at 163, 132 S.Ct. 1376
(emphasis added). The Supreme Court quoted from
Strickland’s prejudice test and then noted that,
while Hill involved a “claim that ineffective
assistance led to the improvident acceptance of a
guilty plea,” in Lafler, “the ineffective advice led
not to an offer’s acceptance but to its rejection.” Id.
The Supreme Court then explained how the
Strickland prejudice test was to be applied to the
circumstances in Lafler:
In these circumstances a
defendant must show that but for the
ineffective advice of counsel there is a
reasonable probability that the plea
offer would have been presented to the
court (i.e., that the defendant would
have accepted the plea and the
prosecution would not have
withdrawn it in light of intervening
circumstances), that the court would
have accepted its terms, and that the
conviction or sentence, or both, under
the offer’s terms would have been less
severe than under the judgment and
37A

sentence that in fact were imposed.
Here, the Court of Appeals for the
Sixth Circuit agreed with that test for
Strickland prejudice in the context of a
rejected plea bargain. This is
consistent with the test adopted and
applied by other appellate courts
without demonstrated difficulties or
systemic disruptions. [Id. at 164, 132
S.Ct. 1376.]
The Supreme Court in Lafler rejected
arguments that “there can be no finding of
Strickland prejudice arising from plea bargaining if
the defendant is later convicted at a fair trial.” Id.
“The Sixth Amendment requires effective
assistance of counsel at critical stages of a criminal
proceeding[,]” including pretrial critical stages of
the criminal proceeding. Id. at 165, 132 S.Ct. 1376.
Moreover, the Supreme Court stated that it had
“not followed a rigid rule that an otherwise fair
trial remedies errors not occurring at the trial
itself. It has inquired instead whether the trial
cured the particular error at issue.” Id. In Lafler,
the trial did not cure the error but “caused the
injury from the error.” Id. at 166, 132 S.Ct. 1376.
“Even if the trial itself is free from constitutional
flaw, the defendant who goes to trial instead of
taking a more favorable plea may be prejudiced
from either a conviction on more serious counts or
the imposition of a more severe sentence.” Id.
The Supreme Court in Lafler also rejected an
argument that providing a remedy for the type of
error that occurred in Lafler would “open the
floodgates to litigation by defendants seeking to
38A

unsettle their convictions.” Id. at 172, 132 S.Ct.
1376. The Supreme Court noted that “[c]ourts have
recognized claims of this sort for over 30 years, and
yet there is no indication that the system is
overwhelmed by these types of suits or that
defendants are receiving windfalls as a result of
strategically timed Strickland claims.” Id. (citation
omitted).
In applying its holding in Lafler to the facts
of that case, the Supreme Court noted that the
defendant was bringing “a federal collateral
challenge to a state-court conviction.” Id. at 172,
132 S.Ct. 1376.
Under [the Antiterrorism and
Effective Death Penalty Act of 1996
(AEDPA) ], a federal court may not
grant a petition for a writ of habeas
corpus unless the state court’s
adjudication on the merits was
“contrary to, or involved an
unreasonable application of, clearly
established Federal law, as
determined by the Supreme Court of
the United States.” 28 USC 2254(d)(1).
A decision is contrary to clearly
established law if the state court
applies a rule that contradicts the
governing law set forth in Supreme
Court cases. [Lafler, 566 U.S. at
172-173, 132 S.Ct. 1376 (quotation
marks, brackets, and citation
omitted).]
The Supreme Court concluded in Lafler that
AEDPA did not present a bar to granting relief in
39A

that case because the state appellate court had
failed to apply Strickland when assessing the
defendant’s ineffective assistance of counsel claim.
Id. at 173, 132 S.Ct. 1376. “By failing to apply
S t r i c k l a n d
t o
a s s e s s
t h e
ineffective-assistance-of-counsel claim [the
defendant] raised, the state court’s adjudication
was contrary to clearly established federal law.” Id.
The defendant satisfied the Strickland test, and the
parties had conceded the existence of deficient
performance. Id. at 174, 132 S.Ct. 1376.
As to prejudice, [the defendant] has shown
that but for counsel’s deficient performance there is
a reasonable probability he and the trial court
would have accepted the guilty plea. In addition, as
a result of not accepting the plea and being
convicted at trial, [the defendant] received a
minimum sentence 3½ times greater than he would
have received under the plea. The standard for
ineffective assistance under Strickland has thus
been satisfied. [Id. (citation omitted).]
As a remedy, the Supreme Court ordered the
prosecutor to reoffer the plea agreement to the
defendant, and if the defendant accepted the plea
offer, the state trial court was to “exercise its
discretion in determining whether to vacate the
convictions and resentence [the defendant]
pursuant to the plea agreement, to vacate only
some of the convictions and resentence [the
defendant] accordingly, or to leave the convictions
and sentence from trial undisturbed.” Id.
In a dissenting opinion in Lafler, Justice
Scalia opined that “the Court today opens a whole
new field of constitutionalized criminal procedure:
40A

plea-bargaining law.” Id. at 175, 132 S.Ct. 1376
(SCALIA, J., dissenting). Justice Scalia explained:
[The defendant] received a full and fair trial, was
found guilty of all charges by a unanimous jury,
and was given the sentence that the law prescribed.
The Court nonetheless concludes that [the
defendant] is entitled to some sort of habeas corpus
relief (perhaps) because his attorney’s allegedly
incompetent advice regarding a plea offer caused
him to receive a full and fair trial. That conclusion
is foreclosed by our precedents. Even if it were not
foreclosed, the constitutional right to effective
plea-bargainers that it establishes is at least a new
rule of law, which does not undermine the [state
appellate court’s] decision and therefore cannot
serve as the basis for habeas relief. And the remedy
the Court announces – namely, whatever the state
trial court in its discretion prescribes, down to and
including no remedy at all – is unheard-of and
quite absurd for violation of a constitutional right. I
respectfully dissent. [Id. at 176, 132 S.Ct. 1376.]
Justice Scalia found it “apparent from
Strickland that bad plea bargaining has nothing to
do with ineffective assistance of counsel in the
constitutional sense.” Id. at 177, 132 S.Ct. 1376.
Because the right to effective assistance has
as its purpose the assurance of a fair trial, the right
is not infringed unless counsel’s mistakes call into
question the basic justice of a defendant’s
conviction or sentence. That has been, until today,
entirely clear. A defendant must show that
counsel’s errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable. Impairment of fair trial is how we
41A

distinguish between unfortunate attorney error and
error of constitutional significance. [Id. at 178, 132
S.Ct. 1376 (citations omitted).]
Justice Scalia further opined that AEDPA
barred granting relief given the “[n]ovelty” of the
holding in Lafler. Id. at 181, 132 S.Ct. 1376.
Because the Supreme Court had never held that
Strickland prejudice could be established in the
circumstances presented in Lafler, Justice Scalia
stated that the Supreme Court violated AEDPA in
granting habeas relief. Id. at 183, 132 S.Ct. 1376.
The portion of Justice Scalia’s dissent summarized
above was joined by Chief Justice Roberts and
Justice Thomas. See id. at 175, 132 S.Ct. 1376.
Justice Alito wrote a separate dissent in which he
expressed agreement with this analysis of Justice
Scalia. See id. at 187, 132 S.Ct. 1376 (ALITO, J.,
dissenting).3
Neither the United States Supreme Court
nor the Michigan appellate courts have addressed
whether Lafler applies retroactively. See People v.
Hobson, 500 Mich. 1005, 1006, 895 N.W.2d 549
(2017) (MARKMAN, C.J., concurring) (“This Court
has not specifically assessed the retroactivity of
[Lafler].”). In their supplemental briefs on remand,
the parties have brought to this Court’s attention
the opinions of lower federal courts as well as a
Utah Supreme Court opinion. “While the decisions
of lower federal courts and other state courts are
not binding on this Court, they may be considered
as persuasive authority.” People v. Woodard, 321
Mich. App. 377, 385 n. 2, 909 N.W.2d 299 (2017).
The lower federal courts have concluded that
Lafler did not create a new rule of constitutional
42A

law. See In re Liddell, 722 F.3d 737, 738 (C.A. 6,
2013) (citing cases in support of the proposition
that every federal circuit to consider the issue has
concluded that Lafler did not create a new rule of
constitutional law). Of particular note is the
analysis in In re Perez, 682 F.3d 930, 932-933 (C.A.
11, 2012), concluding that Lafler and its companion
case, Frye, did not announce new rules. The Perez
court noted that “the Supreme Court’s language in
Lafler and Frye confirm[s] that the cases are
merely an application of the Sixth Amendment
right to counsel, as defined in Strickland, to a
specific factual context.” Id. at 932. “The Court has
long recognized that Strickland’s two-part standard
applies to ‘ineffective assistance of counsel claims
arising out of the plea process.’ ” Id., citing Hill, 474
U.S. at 57, 106 S.Ct. 366.
The Court has also said that Strickland itself
clearly establishes Supreme Court precedent for
evaluating ineffective assistance of counsel claims
under AEDPA. Because we cannot say that either
Lafler or Frye breaks new ground or imposes a new
obligation on the State or Federal Government,
they did not announce new rules. Put another way,
Lafler and Frye are not new rules because they
were dictated by Strickland. [Perez, 682 F.3d at
932-933 (quotation marks and citations omitted).]
Further, the Perez court concluded that any
doubt as to whether Frye and Lafler announced
new rules is eliminated because the Court decided
these cases in the post conviction [sic] context.
Indeed, in Lafler, the Supreme Court held that the
state court’s decision was “contrary to clearly
established [federal] law” under AEDPA. To be
43A

“clearly established federal law” within the
meaning of AEDPA, the rule applied in Lafler
must, by definition, have been an old rule within
the meaning of Teague.... [T]he [Supreme] Court
rarely, if ever, announces and retroactively applies
new rules of constitutional criminal procedure in
the postconviction context. Given the general policy
of not announcing or applying new rules of
constitutional law in habeas proceedings reflected
in Teague and AEDPA, it stands to reason that the
holdings in Frye and Lafler do not constitute new
rules of constitutional law. [Id. at 933-934 (citations
omitted).]
Other lower federal court opinions likewise
reason that Lafler did not create a new rule. See,
e.g., Gallagher v. United States, 711 F.3d 315,
315-316 (C.A. 2, 2013) (“Neither Lafler nor Frye
announced a new rule of constitutional law: Both
are applications of [Strickland].”) (quotation marks
omitted); Williams v. United States, 705 F.3d 293,
294 (C.A. 8, 2013) (“We ... conclude, as have the
other circuit courts of appeals that have addressed
the issue, that neither [Lafler] nor Frye announced
a new rule of constitutional law.”); Buenrostro v.
United States, 697 F.3d 1137, 1140 (C.A. 9, 2012)
(“[N]either Frye nor Lafler ... decided a new rule of
constitutional law. The Supreme Court in both
cases merely applied the Sixth Amendment right to
effective assistance of counsel according to the test
articulated in [Strickland] and established in the
plea-bargaining context in [Hill].”); In re King, 697
F.3d 1189, 1189 (C.A. 5, 2012) (“[W]e agree with
the Eleventh Circuit’s determination in [Perez] that
[Lafler] and Frye did not announce new rules of
44A

constitutional law because they merely applied the
Sixth Amendment right to counsel to a specific
factual context.”); but see Berry v. United States,
884 F. Supp. 2d 453, 462 (E.D. Va., 2012), app. dis.
490 F. Appx. 583 (C.A. 4, 2012) (“Although Hill and
its progeny provided some foundation for the
Court’s decisions in Lafler and Frye, it did not
dictate the result in these cases, nor did it foreclose
all possibility of an alternative decision.”).
Contrary to the overwhelming view of the
lower federal courts, the Utah Supreme Court has
concluded that “Lafler and Frye announced a new
rule[.]” Winward v. Utah, 355 P.3d 1022, 1023,
2015 U.T. 61 (2015). The Utah Supreme Court
acknowledged that its conclusion was “in tension
with the federal circuit courts’ unanimous
determination that Lafler and Frye did not
announce a ‘new rule[.]’ ” Id. at 1026 n. 3 (citing
cases). The Utah Supreme Court explained its
reasoning as follows:
The key holding of Lafler and Frye is
that a defendant who has been
convicted as the result of a fair trial or
voluntary plea, and sentenced through
a constitutionally immaculate
sentencing process, can claim to have
been prejudiced by his counsel’s
ineffectiveness during plea
bargaining. And this key holding is
simply not to be found in the Supreme
Court’s prior case law – not explicitly,
and not by clear implication. [Id. at
1027.]

45A

In other words, “[t]he holding of Lafler – that
prejudice is possible even if a defendant has
received a fair trial – decides an issue neither
contemplated nor addressed by Strickland.” Id. at
1028. Also, before Lafler, the United States
Supreme Court’s cases expanding on the Strickland
prejudice test “did not dictate the result in Lafler
and Frye.” Id. For example, although the Supreme
Court’s opinion in Hill “established that prejudice
exists where a defendant accepts a plea bargain
because of ineffective assistance, and thus waives
his right to trial[,]” id., the Hill opinion “did not
establish the converse: that prejudice exists when a
defendant rejects a plea bargain because of
ineffective assistance, thereby exercising his right
to trial.” Id. “In short,” the Utah Supreme Court
explained, “we cannot conclude that Lafler and
Frye merely applied the principles of old cases to
new facts, as the ‘dictated by precedent’ standard
requires.” Id.
We find the analyses of the lower federal
courts, such as in Perez, more persuasive than that
of the Utah Supreme Court in Winward. The Lafler
opinion did not create a new rule—it merely
determined how the Strickland test applied to the
specific factual context concerning plea bargaining.
Unlike in Padilla, there was no threshold question
in Lafler concerning whether the Strickland test
applied. The Supreme Court’s analysis in Lafler
indicated that the “rule” being applied was the test
for ineffective assistance of counsel set forth in
Strickland and applied to the plea process in Hill.
Although Lafler was the first case in which the
Supreme Court applied the Strickland prejudice
46A

test to the specific factual context presented in
Lafler, i.e., where a defendant rejected a plea offer
due to ineffective assistance of counsel and then
received a fair trial, this does not change the fact
that the same rule set forth in Strickland was being
applied to a new factual context in Lafler. The
application of the Strickland test in Lafler
therefore did not produce a new rule of
constitutional law. See Chaidez, 568 U.S. at 348,
133 S.Ct. 1103.
This conclusion is reinforced by the fact that
the defendant in Lafler was seeking federal
collateral review of a state-court conviction. By
concluding that AEDPA did not bar granting relief
to the defendant, the Supreme Court made clear
that Strickland was the “clearly established
[f]ederal law,” Lafler, 566 U.S. at 172-173, 132
S.Ct. 1376, citing 28 USC 2254(d)(1), that was
being applied in Lafler. “ ‘[C]learly established’ law
is not ‘new’ within the meaning of Teague.”
Chaidez, 568 U.S. at 349 n. 4, 133 S.Ct. 1103.
Therefore, because the Supreme Court in Lafler
held that AEDPA did not bar granting relief to the
defendant in that case, Lafler, 566 U.S. at 173, 132
S.Ct. 1376, it follows that the Supreme Court was
applying “clearly established [f]ederal law,” i.e., the
Sixth Amendment right to counsel as defined in
Strickland, and such clearly established federal law
does not constitute a new rule of constitutional law,
Chaidez, 568 U.S. at 349 n. 4, 133 S.Ct. 1103; see
also Perez, 682 F.3d at 933-934.4
Accordingly, we conclude that Lafler did not
create a new rule and that it therefore applies
retroactively to this case. Thus, we affirm the trial
47A

court’s order granting relief to defendant
predicated on Lafler.
Affirmed.
Footnotes
1 People v. Ginther, 390 Mich. 436, 212 N.W.2d 922
(1973).
2 The prosecutor made only a cursory argument
regarding the first prong of defendant’s ineffective
assistance claim, i.e., whether defense counsel’s
performance was deficient. This panel found no
clear error in the trial court’s finding that defense
counsel had failed to inform defendant of the plea
offer, and therefore, the trial court’s determination
that the deficient performance prong was satisfied
was left undisturbed. Walker II, unpub. op. at 4 n.
4.
3 To be sure, Justice Scalia’s dissent in Lafler
suggested that the holding in Lafler created a new
rule. See Lafler, 566 U.S. at 176-178, 183, 132 S.Ct.
1376 (SCALIA, J., dissenting). But the majority in
Lafler did not share this view, given the majority’s
analysis and conclusion that AEDPA did not bar
granting relief. Although dissenting opinions may
be considered in assessing whether a case created a
new rule, see Chaidez, 568 U.S. at 354 n. 11, 133
S.Ct. 1103, “[d]issents have been known to
exaggerate the novelty of majority opinions; and
the mere existence of a dissent, like the existence of
conflicting authority in state or lower federal
courts, does not establish that a rule is new[,]” id.
4 In Winward, 355 P.3d at 1027 n. 5, the Utah
Supreme Court stated that,
contrary to Perez, the Lafler Court did
not hold that the state court had acted
48A

contrary to clearly established law by
applying Strickland in a manner that
failed to anticipate the outcome of
Lafler and Frye. Instead, the Lafler
Court concluded that the state court
had failed to apply Strickland at all. It
was this failure, not the failure to
anticipate Lafler and Frye, that was
contrary to clearly established law and
therefore allowed the Court to grant
habeas relief. [Citation omitted.]
The Utah Supreme Court’s analysis on this point is
unconvincing. It is Strickland itself that the state
appellate court failed to apply in Lafler; this is
what led the United States Supreme Court in
Lafler to conclude that the state appellate court
had failed to apply “clearly established federal
law.” By concluding that AEDPA did not present a
bar to granting habeas relief, the Court in Lafler
concluded that the law being applied was “clearly
established,” and thus a new rule was not created.
See Lafler, 566 U.S. at 173, 132 S.Ct. 1376 (“By
failing to apply Strickland to assess the
ineffective-assistance-of-counsel claim [the
defendant] raised, the state court’s adjudication
was contrary to clearly established federal law.”).

49A

Appendix E: Order of the Michigan Supreme Court
denying leave to appeal

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellant,
v
JUAN T. WALKER,
Wayne CC: 01-003031-FC
Defendant-Appellee.
SC: 159757
COA: 332491
On order of the Court, the application for leave to
appeal the May 23, 2019 judgment of the Court of
Appeals is considered, and it is DENIED, because
we are not persuaded that the question presented
should be reviewed by this Court.
MARKMAN, J. (dissenting).
In Lafler v Cooper, 566 US 156, 164 (2012),
the United States Supreme Court held for the first
time that where a defendant rejects a plea offer
from the prosecutor as a result of the “ineffective
advice” of defense counsel and the defendant is
later convicted at trial, he or she may be entitled to
relief under Strickland v Washington, 466 US 668
(1984). Here, the Court of Appeals concluded “that
Lafler did not create a new rule [of constitutional
law] and that it therefore applies retroactively to
this case.” People v Walker (On Remand), 328 Mich
50A

App 429, 449 (2019). While I have no present
position as to whether the Court of Appeals erred
in this regard, for the following two reasons, I
would nonetheless grant leave to appeal to consider
the issue of Lafler retroactivity.
First, there is a difference of contemporary
judicial opinion concerning the Court of Appeals’
conclusion that “[t]he Lafler opinion did not create
a new rule-- it merely determined how the
Strickland test applied to the specific factual
context concerning plea bargaining.” Id. at 448.
While it is true that the prevailing conclusion
among the federal appellate courts is that Lafler
applies retroactively because it was simply an
“application” of Strickland and thus did not create
a new rule, see, e.g., Gallagher v United States, 711
F3d 315, 315 (CA 2, 2013) (“Neither Lafler nor
[Missouri v Frye, 566 US 134 (2012)] announced ‘a
new rule of constitutional law’: Both are
applications of Strickland”), the Utah Supreme
Court concluded to the contrary that Lafler
“announced a new rule” because the “holding of
Lafler—that prejudice is possible even if a
defendant has received a fair trial—decides an
issue neither contemplated nor addressed by
Strickland.” Winward v Utah, 355 P3d 1022, 1023,
1028 (Utah, 2015). See also Marceau, Embracing a
New Era of Ineffective Assistance of Counsel, 14 U
Pa J Const L 1161, 1163 (2012) (contending that
Lafler “reflect[s] a seismic shift in Sixth
Amendment jurisprudence”). In light of this
difference of opinion, I believe that review of the

51A

Court of Appeals’ decision is warranted, even if this
Court ultimately affirms that determination.
Second, as a substantive proposition,
applying Lafler retroactively will result in the
unavailability of a considerable amount of
testimony and recollections from defense counsel of
plea discussions occurring many years earlier,
precisely because there is disagreement whether
Strickland was viewed as foreshadowing the rule in
Lafler and, as a result, relatively few attorneys
prior to Lafler may have anticipated that their
recollections in this regard might be of future
constitutional consequence. In the instant case, for
example, defendant was found guilty at his 2001
trial of first-degree premeditated murder, MCL
750.316(1)(a), and possession of a firearm during
the commission of a felony (felony-firearm), MCL
750.227b(1). He now asserts that defense counsel
never conveyed a plea offer to him prior to trial in
which he would have been allowed to plead guilty
to second-degree murder, MCL 750.317, and felonyfirearm. And at the 2015 evidentiary hearing that
followed, defense counsel testified-- not
unreasonably, in my judgment-- that he had no
memory as to whether he had conveyed the plea
offer 14 years earlier. While this Court at an earlier
stage of this case concluded that the trial court did
not clearly err “in finding a reasonable probability
that the defendant would have accepted the plea
offer,” People v Walker, 503 Mich 908, 908 (2018),
it strikes me as a questionable outcome that a
convicted person would obtain relief (restoration of
the original plea offer) despite the absence-- an
52A

altogether predictable absence-- of a critical
element of the record, defense counsel’s recall after
14 years as to whether, and when, he or she
presented a plea offer to a defendant.
It seems likely that more such cases will
come before this Court, in which memories will
have been long-lost; in which attorney records will
have been long-discarded; in which attorneys will
have passed; in which conversations once seen as
mundane will have been transformed into critical
determinants of which long-settled convictions
must be revised and rewritten; and in which
relevant evidence will largely be derived from the
unsubstantiated recollections of long-incarcerated
criminal offenders. For these reasons, I would
grant leave to appeal to address whether the Court
of Appeals properly concluded that Lafler applies
retroactively. In my judgment, this is a
jurisprudentially significant issue with farreaching constitutional and practical implications
and it deserves our careful review.
ZAHRA,
MARKMAN, J.

J.,

joins

the

statement

of

I, Larry S. Royster, Clerk of the Michigan Supreme
Court, certify that the foregoing is a true and
complete copy of the order entered at the direction
of the Court.
May8,2020

53A

